HHS/OIG, Audit -"Medicaid Hospital Outlier Payments in New York for State Fiscal
Years 1998 through 2002,"(A-02-04-01022)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Hospital Outlier Payments in New York for State Fiscal
Years 1998 through 2002," (A-02-04-01022)
June 19, 2006
Complete
Text of Report is available in PDF format (681 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the New York State Department of
Healths method of computing inpatient hospital cost outlier payments resulted in reasonable
payments.  With one exception, New Yorks method of computing inpatient hospital cost
outlier payments generally resulted in reasonable payments.  New York did not use the
most accurate cost-to-charge ratios to convert billed charges to costs.  Had it done
so, New York could have saved approximately $21.5 million ($10.75 million Federal share)
in cost outlier payments between State fiscal years 1998 and 2002 at the three hospitals
that we reviewed.
We recommended that New York amend its State plan to require retroactive
adjustments of interim cost outlier payments based on cost report data for the year in which
the inpatient discharge occurred.  New York concurred with our recommendation, but stated
that implementation would require changes in State regulations and the applicable State plan.